TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Enterprise-Wide Implementation of
                 Active Directory® Needs Increased Oversight



                                              May 2006

                              Reference Number: 2006-20-080




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 9, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Philips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Enterprise-Wide Implementation of Active
                             Directory® Needs Increased Oversight (Audit # 200520010)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) had effectively and securely implemented the Active Directory®-based network and the
 Windows 2003® Server Operating System.

 Synopsis
 The IRS is in the process of implementing an Active Directory®-based network and upgrading its
 computers to the Windows 2003® Server Operating System. Active Directory® is the Microsoft
 Corporation’s (Microsoft) latest technology for administering and securing computer networks
 and is a central component of the Windows 2003® Server
 Operating System. Active Directory® manages the identities
                                                                    The IRS has made significant
 and relationships of computing resources that comprise a                progress in its Active
 network, simplifies system administration, and provides easier                ®
                                                                     Directory implementation;
 methods to strengthen and consistently secure computer            however, increased oversight
 systems. Because the IRS’ previous network operating                is needed to ensure the IRS
 system was divided into obsolete and inefficient boundaries,      achieves all expected benefits,
                                                                       including more efficient
 expensive to manage, and difficult to consistently secure, the
                                                                      network  management and
 migration to Active Directory® should result in an upgraded              increased security.
 network that can better meet the IRS’ future needs.
 The IRS has made significant progress in implementing
 Active Directory®. Planning began in Fiscal Year 2000, and the IRS expects to complete the
 migration by December 31, 2006. However, significant risks remain that must be addressed for
                        The Enterprise-Wide Implementation of Active Directory®
                                      Needs Increased Oversight



the IRS to achieve the benefits of Active Directory®. For example, design standards must be
enforced. Ideally, all IRS functions could be included within one boundary (called a forest1 in
Active Directory®). However, managers and system administrators, who play a large role in
managing current domains2 and applications, may be reluctant to participate in the IRS Active
Directory® forest since they will likely lose autonomous control over the network components.
Five Active Directory® forests have already been established, and two IRS organizations have
stated a need for additional separate forests. Adding unnecessary separate forests will increase
the cost of implementing and maintaining Active Directory® and will make maintaining
consistent security controls more difficult. Funding must also be provided to replace outdated
computers that cannot support Active Directory®. In addition to the costs of the computers, the
IRS is paying Microsoft custom support fees to support its outdated operating systems until the
computers are replaced.
The Active Directory® Team did not have sufficient authority to finalize Active Directory®
guidance documents, enforce adherence to design and security standards and industry best
practices, and ensure the timely and successful migration of Active Directory® IRS-wide. During
our review, the IRS formed a new project team with executive leadership that can provide the
level of oversight needed to ensure the successful implementation of Active Directory®. Because
the new team and leadership are already aware of these implementation issues, we made no
recommendations to address these issues.
We also found some of the computers that had been migrated into the new Active
Directory®-based network did not meet the IRS’ approved security standards. We reviewed a
sample of 53 servers3 from the 399 that had been migrated to the Active Directory®-based
network at the time we initiated our review in July 2005. Over 22 percent did not adequately
comply with the IRS’ approved security settings, resulting in vulnerabilities that could be
exploited by hackers and disgruntled employees. In some instances, Active Directory® security
settings were changed to what the IRS considered stronger settings or to enable the servers to
perform a particular role on the network. In both instances, changes were made without
obtaining concurrence from the Chief, Mission Assurance and Security Services, and approval
from the system owner, as required.
In addition, sufficient oversight was not provided over system administrator accounts. These
accounts need to be carefully controlled because they are the most powerful accounts that exist
on the network and can perform critical tasks that have major effects on the security, operation,
and performance of the network. We found:



1
  The forest is the outermost boundary of Active Directory®.
2
  Domains are groups of computers on a network that are administered as a unit with common rules and procedures.
3
  Servers are computers that carry out specific functions. For example, file servers store files, print servers manage
printers, and network servers manage network traffic.
                                                                                                                     2
                   The Enterprise-Wide Implementation of Active Directory®
                                 Needs Increased Oversight



   •   Unnecessary system administrator accounts had been created on 49 percent of the servers
       we tested. Accounts for these employees should have been created in a central system
       administrator group to improve the management of the accounts and to improve security.
   •   Built-in system administrator accounts were not being adequately safeguarded. System
       administrators must disguise these powerful accounts to prevent intruders from
       identifying them. While the IRS’ security standards require these accounts to be renamed
       to help hide them, the new names did not adequately disguise these accounts on
       57 percent of the servers we tested. In addition, the nature of these accounts was still
       readily apparent on all 53 sampled servers because, directly next to the account names,
       there were descriptions labeling them as built-in system administrator accounts.

Recommendations
We recommended the Chief Information Officer develop a formal process for approving
deviations from the IRS’ approved security settings for Active Directory®. When deviations are
preferred or needed, concurrence from the Chief, Mission Assurance and Security Services, and
approval of the system owner should be requested. We also recommended the Chief Information
Officer improve oversight of system administrator accounts during the implementation of Active
Directory®. Computers should be periodically reviewed for compliance with requirements.
Procedures should be enforced and system administrators held accountable for adhering to these
procedures.

Response
IRS management agreed with our recommendations. Requests for deviations will include the
recommendation from the Chief, Mission Assurance and Security Services, and approval from
the system owner. The IRS will increase oversight of system administrator accounts and enforce
procedures for protecting them. Computers will be periodically monitored and system
administrators will be held accountable for complying with procedures. Management’s complete
response to the draft report is included as Appendix IV.
Copies of this report are also being sent the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                              3
                           The Enterprise-Wide Implementation of Active Directory®
                                         Needs Increased Oversight




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Actions Are Needed to Allow Active Directory®
          to Simplify System Administration ..............................................................Page 3
          Actions Are Needed to Enable Active Directory®
          to Strengthen Network Security....................................................................Page 7
                    Recommendation 1:........................................................Page 10

                    Recommendation 2:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
                        The Enterprise-Wide Implementation of Active Directory®
                                      Needs Increased Oversight




                                              Background

In today’s information technology environment, networked computing is essential for
organizations to remain effective and efficient. As a result, modern operating systems require a
directory service for managing the identities and relationships of the resources that reside on
networks. A directory service:
    •    Stores information about a network’s applications, files, and printers and the people who
         have access to the network.
    •    Provides a consistent way to name, describe, access, manage, and secure information
         about these resources.
    •    Acts as the main switchboard of the network operating system.
Because a directory service supplies these fundamental network operating system functions, it
must be tightly coupled with the operating system controls to ensure the integrity and privacy of
the network.
The Internal Revenue Service (IRS) operates a large computer network that includes about
3,000 servers1 and 110,000 workstations using Windows® operating systems provided by the
Microsoft Corporation (Microsoft). Until recently, the IRS network was divided into over
100 domains2 that were based on obsolete and inefficient organizational boundaries, resulting in
high operating costs and inconsistent security controls. The IRS’ domain structure lacked the
flexibility, scalability,3 and power needed to support changes in organizational needs.
In 2000, the IRS began addressing these concerns by planning the deployment of Active
Directory®, Microsoft’s latest technology for administering and securing computer networks. In
addition to strengthening security, Active Directory® can simplify system administration by
providing a single, consistent point to manage users, applications, and devices. It provides users
with a single sign-on to network resources and provides system administrators with powerful
tools to ensure consistent security controls among desktop users, remote dial-up users, and
external e-commerce customers.



1
  Servers are computers that carry out specific functions. For example, file servers store files, print servers manage
printers, and network servers manage network traffic.
2
  Domains are groups of computers on a network that are administered as a unit with common rules and procedures.
3
  Scalability is a term that refers to how well a system can adapt to increased demands. A scalable network can start
with a few computers and network devices and can easily expand to thousands. Scalability means an organization
will not outgrow its system.
                                                                                                              Page 1
                       The Enterprise-Wide Implementation of Active Directory®
                                     Needs Increased Oversight



Active Directory® is a pervasive technology that affects virtually the entire IRS network. Its
implementation is a major undertaking due to the size of the IRS network and the diversity of
IRS functions it supports. The IRS is currently in the process of upgrading its computers from
the Windows NT® operating system to the Windows 2003® Server Operating System and moving
them into the Active Directory®-based network. When we initiated this review in July 2005,
the migration was still in process and the IRS had moved 399 servers to the new network. The
IRS expects to move all 110,000 workstations in early 2006 and all 3,000 servers by
December 31, 2006.
This review was performed at the Active Directory® Team offices within the Modernization and
Information Technology Services organization’s4 End User Equipment and Services
organization5 in Boston, Massachusetts, and Atlanta, Georgia, during the period July through
September 2005. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




4
  The Modernization and Information Technology Services organization leads the delivery of IRS information
technology solutions to meet enterprise-wide customer needs by providing information technology systems,
products, services, and support.
5
  The End User Equipment and Services organization is a part of the IRS Modernization and Information
Technology Services organization and provides end user computer products, services, and support to IRS functions.
                                                                                                          Page 2
                       The Enterprise-Wide Implementation of Active Directory®
                                     Needs Increased Oversight




                                      Results of Review

The IRS has made significant progress in implementing Active Directory® and is on schedule for
migrating user accounts, workstations, and servers into the new network. However, significant
risks remain that must be addressed for the IRS to achieve the benefits of Active Directory®,
specifically to simplify system administration and strengthen overall security.

Actions Are Needed to Allow Active Directory® to Simplify System
Administration
For the past several years, a team of about 20 members from the End User Equipment and
Services organization has driven the design and deployment of the Active Directory®-based
network for most of the IRS. The Active Directory Team developed design documents and
implementation plans for the new Active Directory®-based network in accordance with Microsoft
recommendations and industry best practices. While the Team has made significant progress, its
members advised, and we confirmed, it did not have the cross-functional authority to ensure all
IRS entities were working together, including the Modernization and Information Technology
Services organization, the Office of Mission Assurance and Security Services,6 and the IRS
business units. The Team did not have the authority to finalize guidance documents, enforce
adherence to design and security standards, or ensure timely and successful implementation of
Active Directory® IRS-wide.
After we discussed these concerns with lead members of the Active Directory® Team, the IRS
formed a new project team with the authority to address Active Directory® design and security
issues from an enterprise perspective. The new team is led by the Enterprise Services
organization7 and reports to the Infrastructure Executive Steering Committee.8 We concur with
this approach and believe the Steering Committee can provide the executive-level oversight
needed to implement Active Directory®. To achieve the full system administration benefits of
Active Directory®, the Steering Committee will need to enforce design standards and provide
adequate funding and oversight to keep implementation on schedule. Because the Steering
Committee is already aware of these implementation issues, we are making no recommendations
to address these issues.


6
  The Office of Mission Assurance and Security Services is a service and support organization that assists the IRS
operating divisions in maintaining secure facilities, technology, and data.
7
  The Enterprise Services organization is a part of the Modernization and Information Technology Services
organization and manages common information technology functions and services performed across the IRS.
8
  The Infrastructure Executive Steering Committee oversees the technological infrastructure for building modernized
systems.
                                                                                                           Page 3
                     The Enterprise-Wide Implementation of Active Directory®
                                   Needs Increased Oversight



Active Directory® design standards must be enforced
The large and dispersed network used by the IRS often requires time-consuming and redundant
system administration. Active Directory® allows the IRS to significantly lower system
administration costs by providing a single place to manage users, groups, and network resources,
as well as to distribute software and manage desktop configurations. It automatically distributes
software to users based on the users’ roles, thus reducing or eliminating multiple contacts the
system administrators need to make to employees’ workstations to install and configure
software.
Active Directory® uses a hierarchical approach to allow organizations to more easily administer
the entire network and to customize administration based on the needs of users. Active
Directory® refers to its outermost logical boundary as a forest. A forest is a collection of subsets
that share the same Active Directory® configuration and design elements. These subsets are
called domains. Domains are used to manage the various populations of users, computers, and
other network resources.
A best practice is to create a large “production domain” to hold almost all of an organization’s
users and computers. A smaller “root domain” is created to contain a minimal number of
powerful administrative accounts and computers. Within domains, smaller subsets called
“organizational units” are used to create administrative groupings of users, computers, and
printers that can be uniformly managed. Figure 1 depicts the various levels in the Active
Directory® hierarchy.




                                                                                              Page 4
                     The Enterprise-Wide Implementation of Active Directory®
                                   Needs Increased Oversight



            Figure 1: Illustration of a Common Active Directory® Structure




                Source: The Treasury Inspector General for Tax Administration’s depiction
                based on Microsoft documentation.

Ideally, the IRS could maintain one forest, then use domains and organizational units to group
objects that have common system settings based on specific needs of the various IRS functions.
Separate forests add overhead and are less efficient because they require the creation and
maintenance of additional design elements and security components, whereas adding an entity to
an existing forest takes advantage of existing design elements and security components.
The Active Directory® Team established the main IRS production forest and provided criteria in
accordance with industry best practices for justifying additional forests. IRS entities requesting a
separate forest must have stringent security requirements, such as the maintenance of law
enforcement data, that require elevated security clearance for system administrators.
To date, the IRS has been successful at limiting the number of forests. Most network resources
are included in a single forest with a root domain and one large production domain.

                                                                                             Page 5
                        The Enterprise-Wide Implementation of Active Directory®
                                      Needs Increased Oversight



Additional forests have been created for two IRS functions (the Offices of Chief Counsel and
Criminal Investigation) and one system (the Integrated Submission and Remittance Processing
System9) that need greater security and can justify the need for separate forests. A forest was
also created for the Integrated Financial System10 because it was implemented before the IRS
was ready to deploy Active Directory® on an enterprise-wide basis. However, this system does
not meet the IRS’ criteria for establishing a separate forest; therefore, consideration should be
given to bringing it into the IRS’ main production forest to achieve maximum efficiencies and
security of IRS operations.
As the implementation of Active Directory® continues, we expect other entities will request
separate forests. Managers and system administrators who play a large role in managing current
domains and applications may be reluctant to participate in the IRS Active Directory® forest
since they will likely lose autonomous control over the network components. For example, two
IRS organizations have stated a need for separate Active Directory® forests in addition to the five
forests already established. Adding unnecessary separate forests will increase the cost of
implementing and maintaining Active Directory® and will make maintaining consistent security
controls more difficult.

Funding must be provided to ensure Active Directory® implementation remains on
schedule
The IRS must also allocate sufficient funds to achieve the benefits of Active Directory®. Most of
the advanced security features offered by Active Directory® cannot be implemented until
outdated computer workstations and servers that cannot support Active Directory® are updated or
replaced. Salary costs for upgrading or replacing servers and workstations were approximately
$5.2 million in Fiscal Year 2005, and an additional $2.4 million is estimated to be spent in Fiscal
Year 2006. In addition, the IRS must continue to pay Microsoft to support its outdated operating
system. After Microsoft support for the IRS’ current network operating system ended in
December 2004, the IRS paid for custom support so it could continue to receive security patches
costing about $318,000 through December 2005. Because computers with the old operating
system are not expected to be upgraded and migrated into Active Directory® until
December 31, 2006, the IRS plans to continue custom support agreements costing $100,000 for
each 6-month period those computers are operating. Delays in updating or replacing the
outdated workstations and servers will not only postpone the benefits of Active Directory® but
also force the IRS to pay additional support costs for its outdated operating system.
We also noted resources and funding for a separate forest to be used as a testing environment had
not been sufficient. IRS security standards require testing to be done separately from the

9
  The Integrated Submission and Remittance Processing System processes paper returns and payments submitted by
taxpayers.
10
   The Integrated Financial System gives the IRS timely and easier access to accurate and consistent financial data,
resulting in improved decision making and management.
                                                                                                            Page 6
                     The Enterprise-Wide Implementation of Active Directory®
                                   Needs Increased Oversight



production environment. Because the IRS did not fund a separate testing forest, testing was
performed in the production forest and in unauthorized test domains that were not compliant with
IRS security policies, expensive to maintain, and likely do not represent the production forest.
As a result, testing could disrupt the production environment and produce unreliable results.

Actions Are Needed to Enable Active Directory® to Strengthen
Network Security
Strong and consistent security controls are essential to protect the confidentiality, integrity, and
availability of sensitive taxpayer data maintained on the IRS network. Active Directory®
centralizes system administration and enforces role-based access controls that can be applied to
both desktop and remote users. To take advantage of Active Directory® capabilities to strengthen
the security of the IRS network, the IRS should ensure security settings on servers are enhanced,
system administrator access rights are controlled, system administrator accounts are securely
managed, and built-in system administrator accounts are safeguarded.

Server security settings did not always comply with IRS standards
The IRS has standard security settings for many types of computers. Active Directory® provides
new techniques for consistently applying these settings. Computers that need to be similarly
secured are placed in a group, called an organizational unit. Customized security settings needed
for computers in a particular organizational unit are placed into one or more subsets, called group
policy objects. Security settings are consistently applied to all the computers by linking the
organizational unit to the corresponding group policy objects. Any computer subsequently
added to the organizational unit should automatically receive the appropriate security settings.
Deviations from the standard settings must be concurred with by the Chief, Mission Assurance
and Security Services, and approved by the system owner.
Because IRS servers have various roles, the Active Directory® Team created an organizational
unit for each role. The IRS also created a group policy object containing universal security
settings, which are applied to all of its server organizational units, and several specialized group
policy objects containing additional settings, which are applied to only specific server
organizational units.
In our sample of 53 servers moved to the Active Directory®-based network, 12 (22.6 percent) did
not adequately comply with the IRS’ approved settings. Six servers did not adequately comply
because the organizational unit in which they were located was not linked to a group policy
object. The Active Directory® Team deleted this organizational unit from the Active Directory®
before our audit had been completed. Five servers were in organizational units linked to two
group policy objects that did not adequately comply with the IRS’ approved set of security



                                                                                              Page 7
                        The Enterprise-Wide Implementation of Active Directory®
                                      Needs Increased Oversight



settings. For example, on the 5 servers, we tested the configurations for 12 user rights11 that we
considered sensitive and found an average of 10 unapproved user rights. Lastly, one server
failed to meet standards because it had a high-risk vulnerability, the lack of antivirus protection.
Some noncompliant settings in group policy objects can be attributed to human error by those
implementing the settings. Other noncompliant settings were made because the Active
Directory® Team purposely created settings it considered stronger than the IRS’ approved
settings or to enable the server to perform a specific function. In both cases, changes to the
settings were made without obtaining concurrence from the Chief, Mission Assurance and
Security Services, and approval from the system owner, as required. We also noted written
instructions for building and configuring Windows 2003® servers had not been prepared by the
End User Equipment and Services organization before the servers were put into operation.
These instructions may have improved the compliance rate of the settings used for the servers.
The use of unapproved security settings may create vulnerabilities for hackers or disgruntled
employees to exploit. At a minimum, system administrators using unapproved settings diminish
the capability of Active Directory® to ensure approved security controls are consistently
implemented throughout the IRS network.

Sufficient oversight was not provided over system administrator accounts and
access rights
The IRS requires employees to be provided only the access rights they need to carry out their
responsibilities. System administrator accounts are especially powerful. Employees assigned to
these accounts can make changes to the directory service, control directory-wide security
settings, and install software. We found that, during the transition to Active Directory®, system
administrator access was not adequately controlled, unnecessary system administrator accounts
were established on servers, and built-in system administrator accounts were not being
adequately safeguarded.
System administrator access was not adequately controlled. Industry best practices recommend
keeping the membership of system administrator groups to the absolute minimum necessary to
support the organization and limiting system administrator rights to only those needed by the
individuals in the groups. Prior to implementation of Active Directory®, employees who may
have needed only limited system administrator rights to carry out their responsibilities were
assigned to system administrator groups with full system administrator capabilities because the
previous operating system could not customize system administrator groups. For example,
during a recent audit we found that employees were given full system administrator rights on



11
   User rights are tasks a user is permitted to perform on a computer or network. User rights determine who can
log on to a system and the tasks they are permitted to perform. For example, a user can be given the right to change
a system’s time or access a system’s security logs.
                                                                                                            Page 8
                      The Enterprise-Wide Implementation of Active Directory®
                                    Needs Increased Oversight



34 percent of the computers we tested just to obtain certain needed system administrator rights.12
Active Directory® offers improved controls by creating system administrator groups whose rights
can be customized to the needs of the employees in the groups.
During this review, the IRS began to create system administrator groups whose rights were
customized. For example, a group was created with full system administrator rights, but the
employees in the group could access only computers they were assigned to manage. Another
group was created with limited system administrator rights to manage user accounts throughout
the domain. The IRS is still developing criteria for granting system administrator access into
Active Directory® based on the employees’ job roles and determining approval paths for the
various levels of access.
The process of reviewing and revising old rights and the establishment of centrally managed
system administrator groups are expected to be a multiyear project and require buy-in from the
various IRS business units. To expedite the implementation of Active Directory®, the IRS
decided to use the same access rights (including system administrator rights) from the previous
operating system regardless of whether the employees still needed all the rights in their groups.
However, the risk of an employee accidentally or inappropriately accessing data or disrupting
computer operations will be elevated until customized system administrator groups are
established that limit users to only the rights they need.
Unnecessary system administrator accounts were established on servers. The IRS requires
system administrator accounts to be created in centrally managed groups rather than on
individual servers. Creating system administrator accounts on servers poses two problems.
First, controls over accounts created on servers may be weaker than controls on accounts created
centrally. Accounts on servers are governed by control settings on the servers, whereas accounts
created in centrally controlled groups are governed by group policy objects. Because it is much
more difficult to maintain consistent settings on individual servers than in group policy objects,
the risk of security weaknesses increases. Second, finding and deleting accounts on servers for
employees who change positions or leave the IRS can be a nearly impossible task in a large
network because each server has to be checked. As a result, accounts that should be deleted may
be overlooked and can be targeted for misuse by persons attempting to gain unauthorized access
to the system. When accounts are created in a centrally controlled group, the group account is
placed on the servers the group needs to access. When an employee no longer needs access to
the servers, the employee just has to be removed from the central group.
We found system administrators had established system administrator accounts on
26 (49 percent) of the 53 servers we sampled. Sixty-eight system administrator accounts
belonging to 27 system administrators had been directly created on these servers. Some of the
accounts had been needed temporarily, while the servers were being prepared to be migrated into

12
  Secure Configurations Are Initially Established on Employee Computers, but Enhancements Could Ensure
Security Is Strengthened After Implementation (Reference Number 2006-20-031, dated February 2006).
                                                                                                     Page 9
                    The Enterprise-Wide Implementation of Active Directory®
                                  Needs Increased Oversight



the Active Directory®-based network, but were not subsequently removed. Five (18.5 percent) of
the 27 system administrators also had duplicate system administrator accounts that had been
centrally created. As a result, the risk that system administrator accounts could be misused was
increased.
Built-in system administrator accounts are not being adequately safeguarded. Every server is
provided a built-in system administrator account named Administrator that was created as part of
Microsoft’s design of the operating system. Its purpose is to have an account that can be used if
problems prevent system administrators from using their centrally created accounts. To prevent
unauthorized persons from recognizing and using these accounts, the IRS requires system
administrators to rename the accounts.
On 30 (57 percent) of the 53 servers we reviewed, system administrators had not sufficiently
disguised the built-in accounts. The new names on the 30 servers still allowed these accounts to
be identified as regular system administrator accounts. Even if the new names had fully
disguised the accounts, the built-in system administrator accounts were readily apparent on
all 53 sampled servers because, directly next to the account names, there were descriptions
labeling them as built-in system administrator accounts. To fully disguise these powerful
accounts, the descriptions should also be changed. Because these powerful accounts, unlike
regular system administrator accounts, do not lock up after several unsuccessful attempts are
made to guess the password, they could be the target of persons who are attempting to gain
unauthorized access to the system or disrupt computer operations.
For the latter two issues, the Chief Information Officer has not provided sufficient oversight over
system administrators to ensure they comply with procedures and best practices during the
transition to Active Directory®. We are confident the Infrastructure Executive Steering
Committee will provide the oversight and direction necessary to ensure consistent standards for
administrative access are applied as soon as possible.

Recommendations
The Chief Information Officer should:
Recommendation 1: Formalize the approval process for distributing security settings in
Active Directory® and ensure IRS standards are met. If deviations are suggested, concurrence
from the Chief, Mission Assurance and Security Services, and approval from the system owner
should be obtained.
       Management’s Response: IRS management agreed with this recommendation. The
       Associate Chief Information Officer, End User Equipment and Services, will formalize
       the approval process for distributing security settings to Active Directory® using the
       policies and procedures currently in place for current systems and applications. Requests


                                                                                           Page 10
                    The Enterprise-Wide Implementation of Active Directory®
                                  Needs Increased Oversight



       for deviations will include the recommendation from the Chief, Mission Assurance and
       Security Services, and approval from the system owner.
Recommendation 2: Increase oversight of system administrator accounts and access rights
during the transition to Active Directory®, enforce the IRS procedures that prohibit the creation
of system administrator accounts on individual servers and require built-in system administrator
accounts to be properly disguised, and periodically monitor computers for compliance and hold
system administrators accountable for complying with these procedures.
       Management’s Response: IRS management agreed with this recommendation. The
       Associate Chief Information Officer, End User Equipment and Services, will increase
       and improve oversight of system administrator accounts during the transition to Active
       Directory® and review employees with Active Directory® system administrator rights.
       The Associate Chief Information Officer, End User Equipment and Services, will also
       enforce prohibitions on the system administrator accounts on individual servers, require
       built-in system administrator accounts to be properly disguised, monitor computers
       monthly for compliance, and hold system administrators accountable for complying with
       requirements.




                                                                                          Page 11
                          The Enterprise-Wide Implementation of Active Directory®
                                        Needs Increased Oversight



                                                                                                  Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) had effectively and securely implemented the Active Directory®-based network and the
Windows 2003® Server Operating System. To accomplish this objective, we:
I.         Determined whether the IRS had effectively and securely created and implemented the
           structural components of Windows 2003® and Active Directory®.
           A. Evaluated whether the forest,1 domain,2 and other structural components of Active
              Directory® were created and implemented soundly and securely following industry
              best practices.
           B. Reviewed the adequacy of general security controls used to connect to and access
              Active Directory®.
           C. Determined whether Active Directory® system administrators had received adequate
              training.
           D. Reviewed the progress and status of Active Directory® features the IRS had not yet
              implemented.
           E. Reviewed the progress and status of computing resources the IRS had not yet brought
              into the Active Directory®-based network.
II.        Determined whether computers residing in the Active Directory®-based network were
           configured with strong security settings.
           A. Reviewed the IRS’ security standards to determine whether all computer security
              controls had been addressed.
           B. Evaluated the procedures and methods the IRS uses to install security settings onto
              computers and test computers for compliance with security standards.
           C. Selected a judgmental sample of 53 servers from the universe of 399 servers the IRS
              had moved into the Active Directory®-based network when we initiated this review in
              July 2005. We tested the 53 servers to determine whether strong computer security
              controls had been implemented through Active Directory®. Since servers with
              different server roles (for example, file servers, print servers, and domain controller


1
    The forest is the outermost logical boundary of Active Directory®.
2
    A domain is a group of computers on a network that are administered as a unit with common rules and procedures.
                                                                                                          Page 12
                          The Enterprise-Wide Implementation of Active Directory®
                                        Needs Increased Oversight



               servers) have different security configurations, we judgmentally selected about
               5 servers from each of the 12 server roles. Some server roles had a population of
               fewer than five servers. Judgmental samples were used because we were not
               planning to project the results against the entire universe.
           D. Used the IRS’ configuration-checking computer program to assess the adequacy of
              computer-based controls on the 53 sampled servers.
           E. Reviewed the purpose, necessity, and security of groups and accounts that had been
              created directly on the 53 sampled servers.
III.       Determined whether the IRS had effectively used organizational units and group policy
           objects3 to ensure its computers met computer security standards.
           A. Reviewed documentation on the IRS’ organizational units and group policy objects.
           B. Analyzed security weakness identified in the 53 sampled servers and determined
              whether group policy objects had been correctly configured.
           C. Assessed the IRS’ plans for continued progress in implementing organizational units
              and group policy objects.




3
    Group policy objects contain security settings which are applied to corresponding groups of computers.




                                                                                                             Page 13
                   The Enterprise-Wide Implementation of Active Directory®
                                 Needs Increased Oversight



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Gerald Horn, Audit Manager
Myron Gulley, Acting Audit Manager
Richard Borst, Senior Auditor
Mary Jankowski, Senior Auditor
Jody Kitazono, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                     Page 14
                  The Enterprise-Wide Implementation of Active Directory®
                                Needs Increased Oversight



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Mission Assurance and Security Services OS:MA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                       Page 15
      The Enterprise-Wide Implementation of Active Directory®
                    Needs Increased Oversight



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 16
The Enterprise-Wide Implementation of Active Directory®
              Needs Increased Oversight




                                                     Page 17
The Enterprise-Wide Implementation of Active Directory®
              Needs Increased Oversight




                                                     Page 18
The Enterprise-Wide Implementation of Active Directory®
              Needs Increased Oversight




                                                     Page 19
